HHS/OIG-Audit--"Clinical Laboratory Services Provided Under the Missouri Medicaid Program, (A-07-95-01138)"
Department of
Health and Human Services
Office of Inspector General -- AUDIT
"Clinical Laboratory Services Provided Under the Missouri Medicaid
Program," (A-07-95-01138)
March 29, 1996
Complete Text of Report is available in PDF format
(3.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency did not have procedures
to prevent paying for unbundled or duplicated claims for certain laboratory
services. A statistical sample of 150 claims showed that 121 claims were overpaid.
We estimate the overpayments totaled $653,315 (Federal share) for unbundled
or duplicated laboratory tests for calendar years 1993 and 1994. In addition
to recommendations calling for financial adjustments, we recommended that the
State agency install edits to prevent payments for unbundled or duplicate services
and instruct providers on bundling requirements.